Audit Report




OIG-06-020
Management Letter for Fiscal Year 2005 Audit of the
Federal Financing Bank’s Financial Statements
December 27, 2005




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                            December 27, 2005


            MEMORANDUM FOR BRIAN D. JACKSON, CHIEF FINANCIAL OFFICER
                           FEDERAL FINANCING BANK

            FROM:                 William H. Pugh,
                                  Deputy Assistant Inspector General
                                   for Financial Management and Information
                                   Technology Audits

            SUBJECT:              Management Letter for Fiscal Year 2005 Audit of the
                                  Federal Financing Bank’s Financial Statements


            I am pleased to transmit the attached management letter in connection with the
            audit of the Federal Financing Bank’s (FFB) Fiscal Year (FY) 2005 financial
            statements. We contracted with the independent certified public accounting firm
            KPMG LLP to audit FFB’s financial statements for FY 2005. The contract required
            that the audit be performed in accordance with generally accepted government
            auditing standards; applicable provisions of Office of Management and Budget
            Bulletin No. 01-02, Audit Requirements for Federal Financial Statements; and the
            GAO/PCIE Financial Audit Manual.

            As part of its audit, KPMG LLP issued and is responsible for the accompanying
            management letter that discusses certain matters that were identified during the
            audit, which were not required to be included in the audit reports.

            In connection with the contract, we reviewed KPMG LLP’s letter and related
            documentation and inquired of its representatives. Our review disclosed no
            instances where KPMG LLP did not comply, in all material respects, with generally
            accepted government auditing standards.
Page 2


Should you have any questions, please contact me at (202) 927-5400, or a member
of your staff may contact Mike Fitzgerald, Director, Financial Audits at
(202) 927-5789.

Attachment

cc:   Donald V. Hammond
      Vice President, FFB

      Roger Kodat
      Vice President and Treasurer, FFB
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




October 31, 2005

Inspector General, U.S. Department of the Treasury, and the
Fiscal Assistant Secretary of the U.S. Department of the Treasury:

We have audited the financial statements of the Federal Financing Bank (the Bank), for the year ended
September 30, 2005, and have issued our report thereon dated October 31, 2005. In planning and
performing our audit of the financial statements of the Bank, we considered internal control in order to
determine our auditing procedures for the purpose of expressing our opinion on the financial statements
and not to provide assurance on internal control. We have not considered internal control since the date of
our report.

During our audit, we noted certain matters involving internal control and other operational matters that we
present for your consideration. These comments and recommendations are summarized in Exhibit I and
have been discussed with the appropriate members of management and are intended to improve internal
control or result in other operating efficiencies. We also provide in Exhibit II the status of the comments
and recommendations included in our letter arising from the fiscal year 2004 audit.

Our audit procedures are designed primarily to enable us to form an opinion on the financial statements,
and therefore, may not bring to light all weaknesses in policies or procedures that may exist. We aim,
however, to use our knowledge of the Bank gained during our work to make comments and suggestions
that we hope will be useful to you.

This report is intended solely for the information and use of the Bank’s management, the U.S. Department
of the Treasury’s Office of Inspector General, the U.S. Government Accountability Office, OMB, and the
U.S. Congress, and is not intended to be, and should not be, used by anyone other than these specified
parties.




                                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                member firm of KPMG International, a Swiss cooperative.
                                                                                                      Exhibit I

                                      FEDERAL FINANCING BANK
                                      Comments and Recommendations
                                             September 30, 2005


1.   Financial Reporting Standards

     The Federal Accounting Standards Advisory Board (FASAB), the accounting standards-setting body for
     the Federal Government, has allowed the Bank and other Federal entities that issued financial statements
     prior to October 1999 using Financial Accounting Standards Board (FASB) accounting principles, to either
     continue doing so or to issue financial statements using FASAB accounting principles. The Bank elected to
     continue issuing financial statements using FASB accounting principles. The Bank also prepares financial
     statements and related disclosures using the FASAB accounting principles; however, the Bank only
     provides this information to the U.S. Department of the Treasury for consolidation into the Treasury
     Department-wide financial report. As a result, users of the Bank’s financial statements do not receive key
     information that is required to be disclosed under FASAB accounting principles, such as:

     •     Mission, programs, and related organizational structure;
     •     Most important challenges;
     •     Assessment of the reliability and completeness of the performance and financial data in the financial
           report and management’s plan to address any deficiencies;
     •     Statement of assurance indicating whether (a) management controls are in place and (b) financial
           systems conform with government-wide standards;
     •     Systems, controls, and compliance with applicable laws and regulations;
     •     Forward-looking information regarding significant demands, risks, uncertainties, events, conditions,
           and trends;
     •     Performance goals and results;
     •     Financial statement highlights;
     •     Statement of budgetary resources; and
     •     Statement of financing.

     Recommendation

     We recommend that the Bank consider issuing a single set of financial statements using the FASAB
     accounting principles. At a minimum, the Bank should add a management discussion and analysis section
     to the report issued under FASB accounting principles that provides the information that is required to be
     disclosed under FASAB accounting principles. This will provide additional financial information to users
     of the Bank’s financial statements.

     Management Response

     Management does not concur with the finding and recommendation. Management is not in favor of
     changing the Federal Financing Bank’s publicly distributed financial statements to the FASAB principles
     and detailed the strategic and practical reasons why in the response to similar recommendations included in
     the fiscal year 2004 management letter. In summary, management’s response to the fiscal year 2004

                                                      2
                                                                                                        Exhibit I

                                      FEDERAL FINANCING BANK
                                      Comments and Recommendations
                                              September 30, 2005


     management letter indicated that the financial statement users are not and would not be familiar with
     FASAB statements in general and more specifically the FASAB format of financial presentation clearly
     does not capture the key financial measurements of a financial institution. Management also finds it
     curious that this recommendation is repeated in fiscal year 2005 since FASAB has accepted the continued
     use of FASB accounting principles by federal entities. Nevertheless, in the interest of providing those
     disclosures not required under FASB but deemed useful to the U.S. Department of the Treasury
     consolidated reporting, management will incorporate a management’s discussion and analysis section in
     future financial reports provided this will satisfy the recommendation.

     Auditors’ Response to Management’s Response

     We understand the Bank’s need to report the appropriate financial information to meet user needs and
     believe that including a management discussion and analysis that provides the information that is disclosed
     under FASAB accounting principles will improve the usefulness of the FFB financial report.

2.   System Development Methodology and Configuration Management Plan

     The Bank implemented certain programming changes without a formally documented system development
     methodology plan or configuration management plan. National Institute of Standards and Technology
     Special Publication (NIST SP) 800-18, Guide for Developing Security Plans for Information Technology
     Systems, includes requirements and guidance on planning for security applicable to systems development
     life cycle stages.

     Recommendation

     We recommend that the Bank formally document its system development methodology and configuration
     management plans. The system development methodology plan should include programming naming
     conventions, a description of the system development phases, procedures to be performed in each phase,
     emergency program change procedures, application test procedures, as well as a development, test and
     production access control lists. The configuration management plan should discuss the process for
     migrating LMCS source code changes into the production environment and the DEC Code Management
     System as well as the dual password authentication process.

     Management’s Response

     Management concurs with the finding and recommendation. Management will develop and document a
     system development methodology as part of an overall information technology system restructuring.
     Management plans to complete the systems restructuring 18 to 24 months from now - in fiscal year 2007.

3.   Interest Credit

     As mandated by legislation, the Rural Utilities Service (RUS) receives an interest credit from the Bank
     equal to the amount of interest RUS pays to the private utility companies. RUS calculates the interest credit
     semi-annually and submits the calculation and supporting schedules to the Bank. The Bank did not


                                                       3
                                                                                                    Exhibit I

                                     FEDERAL FINANCING BANK
                                     Comments and Recommendations
                                            September 30, 2005


     effectively review the calculation as we determined that RUS incorrectly calculated the interest credit
     resulting in an overstatement of approximately $4.8 million.

     Recommendation

     We recommend that the Bank recalculate the interest credit calculation submitted by RUS, including
     verifying the mathematical accuracy of calculation and ensuring that the calculation is based on the
     appropriate number of days and interest rate. We also recommend that the Bank require a supervisor to
     review and approve the recalculation and journal entry recording the interest credit.

     Management’s Response

     Management concurs with the finding and recommendation and will incorporate procedures to test the
     calculation of RUS interest credits prior to their acceptance.

4.   Review of Journal Entries

     The Bank did not consistently document the review and approval of all journal vouchers consistent with
     the guidance in OMB Circular No. A -123, Management Accountability and Control, that states: “The
     documentation for transactions, management controls, and other significant events must be clear and
     readily available for examination.” Specially, we determined that the Bank did not document their review
     and approval of recurring journal vouchers.

     Recommendation

     We recommend that the Bank require supervisors to compare the journal vouchers to the general ledger
     and supporting documentation to verify that the journal voucher is properly recorded and to document
     his/her review and approval of each journal voucher. This will help ensure that the journal vouchers are
     properly recorded and assist the Bank in complying with the guidance in OMB Circular No. A -123,
     Management Accountability and Control.

     Management’s Response

     Management concurs with the need for supervisory over-sight of all journal entries. Management indicated
     that a significant system change will be required to alter the current procedure of recording and routing
     journal entries in the manner of the recommendation. Management will incorporate this as a process
     improvement during the information technology systems restructuring, which is planned for fiscal year
     2007.




                                                     4
                                                                                                   Exhibit II

                                    FEDERAL FINANCING BANK
                                   Status of Prior Year Recommendations
                                           September 30, 2005



          Prior Year Recommendations                                  Current Year Status

1. Financial Reporting Standards                       This comment has not been corrected and is repeated
                                                       as comment 1.

2. Memorandum of Agreement                             This comment has been corrected.

3. System Development Methodology and                  This comment has not been corrected and is repeated
   Configuration Management Plan                       as comment 2.

4. Policies                                            This comment has been corrected.




                                                   5
